                             Closeout Memorandum for Case No. M98020006
             ,

 O n 3 February 1998 we received an allegation from
         of the                                       and
r n h ad engaged in a "conspiracy        ... to plagiarize
 was done under an NSF grant."' a l s o claimed
 relation to this matter. After revieurlng the complaint
 able to obtain, we concluded that the matter should be closed without further inquiry. This
 determination is based on the extreme age of the case (the alleged plagiarism occurred over 16
 years ago). Because of the case's age, we were unable to obtain the NSF grant file or other
 complete, reliable information.       This led to an inability to make reliable factual
 determinations. Finally, we were unable to establish NSF's jurisdiction in the matter, because
it is impossible to determine whether and to what extent the relevant research was supported
 by NSF. For these reasons, this case is closed.


cc:    Legal
       Assistant Inspector General for Oversight
       Inspector General




            , - ----- 'r--



                                         Page 1 of 1
